UnitetJ States Court of Appeals
_1/or the Cigbtb Circuit

No. 20-1032

F. Allan Midyctt, M.D.
Plaintiff - Appellant
v.
Robert Wilkie, Secretary, Department of Veterans Affairs
Defendant - Appellee

Appeal from United States District Court
for the Western District of Arkansas - Fayetteville

Submitted: August 26, 2020
Filed: August 31, 2020
[Unpublished]

Before ERICKSON, STRAS, and KOBES, Circuit Judges.

PER CURIAM.
F. Allen Midyett appeals after the district court' dismissed his employment
discrimination action as barred by res judicata, based on the dismissals of his prior

'The Flonorablc Timothy L. Brooks, United States District Judge for the
Western District of Arkansas.

Appellate Case: 20-1032

Paqe: 1

Date Fifed: 08/31/2020 Entry ID: 495072-

employment discrimination suits related to the same events. The district court also
denied his post-judgment motion under Federal Rule of Civil Procedure 60(b), in
which Midyett asserted that res judicata was inapplicable because the dismissals of
his prior suits were based on fraud.
Because the only order of the district court designated in Midyetf s notice of
appeal was the order denying his post-judgment motion, we conclude that the scope
of this appeal is limited to review of that order; and we further conclude that there
was no abuse of discretion in the denial of post-judgment relief. Sec Fed. R. App.
P. 3(c)( 1) (notice of appeal must, inter alia, designate judgment, order, or part thereof
being appealed); Chambers v. City of Fordyce, Ark., 508 F.3d 878, 881-82 (8th Cir.
2007) (per curiam) (appeal from denial of Fed. R. Civ. P. 60(b) motion does not raise
underlying judgment for review, but only question of whether district court abused
its discretion in ruling on motion); E.F. Hutton & Co. v. Bems, 757 F.2d 215, 216-17
(8th Cir. 1985) (to prevail on Fed. R. Civ. P. 60(b) motion based on fraud, movant
must establish by clear and convincing evidence that adverse party engaged in fraud
or other misconduct that prevented movant from fully and fairly presenting his case).
Accordingly, we affirm. Sec 8th Cir. R. 47B. We also deny the motion filed
by the Secretary of the Department of Veterans Affairs seeking to supplement the
record.

-2-

Appellate Case; 20-1032

Paqe: 2

Date Filed; 08/31/2020 Entry ID: 4950725

